HHS/OIG Audit Report:"Review of Outpatient Pharmacy Services Provided by Salem Hospital For Fiscal Year Ending September 30, 1999,"(A-01-01-00505)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Pharmacy Services Provided by Salem Hospital For Fiscal Year Ending September 30, 1999," (A-01-01-00505)
June 5, 2001
Complete
Text of Report is available in PDF format (560 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether outpatient pharmacy services at Salem Hospital (Hospital) were billed
for and reimbursed in accordance with Medicare regulations. Based on a statistical sample of RC 250 (pharmacy) and RC 636
(drugs requiring detail coding) charges, we estimated that the Hospital had overstated its fiscal year 1999 Medicare outpatient
pharmacy charges by at least $106,609. We determined that the Hospital billed Medicare for medications not properly supported
by medical records and for self-administered medications which are not reimbursable by Medicare. We noted that the Hospital
did not establish or consistently follow existing procedures for the proper billing and record keeping of outpatient pharmacy
services.